           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        SINGLE AUDIT OF THE
         STATE OF ALABAMA
     FOR THE FISCAL YEAR ENDED
         SEPTEMBER 30, 2010

     September 2012   A-77-12-00011



  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      September 7, 2012                                                    Refer To:

To:        Amy Thompson
           Senior Advisor
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Alabama for the Fiscal Year
           Ended September 30, 2010 (A-77-12-00011)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Alabama for the Fiscal Year ended September 30, 2010. 1 Our
           objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           The Alabama Examiners of Public Accounts (AEPA) performed the audit. We have not
           received the results of the desk review conducted by the Department of Health and
           Human Services (HHS). We will notify you if HHS determines the audit did not meet
           Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by the AEPA and the reviews
           performed by HHS. We conducted our review in accordance with the Council of the
           Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
           Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Alabama Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The State
           Department of Education is the Alabama DDS’ parent agency.


           1
            Alabama Examiners of Public Accounts, Single Audit of Federal Financial Assistance Programs
           Performed in Accordance with the Single Audit Act Amendments of 1996 (Public Law 104-156) and U.S.
           Office of Management and Budget Circular A-133, State of Alabama, October 1, 2009 through
           September 30, 2010.
Page 2 – Amy Thompson

The single audit reported the Time Report of Personnel Services for Disability
Determination Services (Form SSA-4514) was not accurate and complete. Specifically,
the Form SSA-4514 contained a mathematical error and overtime hours were
understated. 2 The corrective action plan indicates a revised Form SSA-4514 will be
submitted to SSA.

We recommend that SSA ensure the DDS

1. submitted a revised and accurate Form SSA-4514, and

2. implemented procedures to verify the accuracy of information reported on the Form
   SSA-4514.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   The Department of Finance (DOF) did not have adequate policies and procedures in
    place for access security. 3

•   DOF did not perform background checks for prospective employees or those
    transferred from other State agencies hired to perform sensitive work. 4

•   Internal Service Funds had working capital reserves in excess of the 60-day
    reserve. 5




2
 Alabama Examiners of Public Accounts, Single Audit of Federal Financial Assistance Programs
Performed in Accordance with the Single Audit Act Amendments of 1996 (Public Law 104-156) and U.S.
Office of Management and Budget Circular A-133, State of Alabama, October 1, 2009 through
September 30, 2010, finding 2010-4-2.
3
 Alabama Examiners of Public Accounts, Single Audit of Federal Financial Assistance Programs
Performed in Accordance with the Single Audit Act Amendments of 1996 (Public Law 104-156) and U.S.
Office of Management and Budget Circular A-133, State of Alabama, October 1, 2009 through
September 30, 2010, finding 2001-01-02.
4
 Alabama Examiners of Public Accounts, Single Audit of Federal Financial Assistance Programs
Performed in Accordance with the Single Audit Act Amendments of 1996 (Public Law 104-156) and U.S.
Office of Management and Budget Circular A-133, State of Alabama, October 1, 2009 through
September 30, 2010, finding 2009-01-01.
5
 Alabama Examiners of Public Accounts, Single Audit of Federal Financial Assistance Programs
Performed in Accordance with the Single Audit Act Amendments of 1996 (Public Law 104-156) and U.S.
Office of Management and Budget Circular A-133, State of Alabama, October 1, 2009 through
September 30, 2010, finding 2002-1-1.
Page 3 – Amy Thompson


Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                      Patrick P. O’Carroll, Jr.

cc:
Lynn Bernstein
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
